<html>
<title> - NOMINATION OF COURTNEY DUNBAR JONES, TO BE A JUDGE OF THE UNITED STATES TAX COURT</title>
<body><pre>[Senate Hearing 115-841]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-841

                  NOMINATION OF COURTNEY DUNBAR JONES

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                 ON THE

                             NOMINATION OF

                 COURTNEY DUNBAR JONES, TO BE A JUDGE 
                     OF THE UNITED STATES TAX COURT
                               __________

                           DECEMBER 11, 2018
                               __________


                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                     
                                     

            Printed for the use of the Committee on Finance

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
40-950-PDF                WASHINGTON : 2020 





                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana              SHELDON WHITEHOUSE, Rhode Island

           Jeffrey Wrase, Staff Director and Chief Economist

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     2

                                WITNESS

Kaine, Hon. Tim, a U.S. Senator from Virginia....................     8

                         ADMINISTRATION NOMINEE

Jones, Courtney Dunbar, nominated to be a judge of the United 
  States Tax Court, Washington, DC...............................    11

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    19
Jones, Courtney Dunbar:
    Testimony....................................................    11
    Prepared statement...........................................    20
    Biographical information.....................................    21
    Responses to questions from committee members................    27
Kaine, Hon. Tim:
    Testimony....................................................     8
Wyden, Hon. Ron:
    Opening statement............................................     2
    Prepared statement...........................................    28

                                 (iii)

 
                  NOMINATION OF COURTNEY DUNBAR JONES,
                          TO BE A JUDGE OF THE
                        UNITED STATES TAX COURT

                              ----------                              


                       TUESDAY, DECEMBER 11, 2018

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:04 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Roberts, Thune, Isakson, Scott, Cassidy, 
Wyden, Nelson, Carper, Cardin, Bennet, and Casey.
    Also present: Republican staff: Jeffrey Wrase, Staff 
Director and Chief Economist; Chris Allen, Senior Advisor for 
Benefits and Exempt Organizations; Andre Barnett, Tax Counsel; 
Becky Cole, Policy Director; and Nicholas Wyatt, Nominations 
and Tax Professional Staff Member. Democratic staff: Joshua 
Sheinkman, Staff Director; Michael Evans, General Counsel; Ian 
Nicholson, Investigator; and Tiffany Smith, Chief Tax Counsel.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. I would like to welcome everyone to today's 
nomination hearing.
    Today, we will consider the nomination of Ms. Courtney 
Dunbar Jones to be a judge for the United States Tax Court.
    Before I speak to the position Ms. Jones has been nominated 
to, and her qualifications, I would like to note that this will 
likely be my last hearing as chairman of the Finance Committee. 
I have served on this committee since 1991, and, while I have 
had more than a few arguments sitting in this chair, I have 
also made a lot of friends here and negotiated the passage of a 
whole plethora of laws.
    It has been one of the great honors of my life to serve on 
this committee. I will miss it, as well as my friends here on 
both sides of the aisle. I will miss them too. But I know I 
will be leaving the committee in capable hands.
    Well now, on to the matter at hand. The U.S. Tax Court 
plays an important role in our tax system, as it is the only 
avenue for taxpayers to challenge what may be an improperly 
assessed tax liability before being forced to send in payment 
or receive a refund. Judges on the Tax Court are some of the 
very few government officials who deal face-to-face with 
individual taxpayers on issues relating to their taxes. 
Therefore, it is important that we keep the Court staffed with 
qualified judges to ensure accountability to taxpayers and 
timely access. Ms. Jones, if confirmed, would serve as one of 
these important government officials.
    Currently, Ms. Jones serves as a Senior Attorney in the 
Office of the Chief Counsel at the Internal Revenue Service, 
focusing on advising the IRS and Department of Justice on 
litigation in the Federal judiciary related to tax-exempt 
organizations. She completed her undergraduate degree at 
Hampton University, where she currently serves as a trustee, 
and is a 2004 graduate of Harvard Law School.
    With over a decade's experience practicing tax law in both 
the public and private sectors, I have no doubt that she is 
duly qualified for the position that we are considering here 
today.
    Ms. Jones is joined this morning by many friends and 
family, including the Honorable Vanessa Gilmore, U.S. District 
Court Judge for the Southern District of Texas. Judge Gilmore 
is also a graduate of Ms. Jones's alma mater, Hampton 
University, and has mentored her over the last 20 years.
    Also here in support are several members of her sorority, 
Delta Sigma Theta. That is taking advantage of the committee. 
[Laughter.] No, that is a service sorority which focuses on 
lifelong scholarship and service.
    I want to also recognize Colonel James George and his 
service of 27 years to the U.S. Army. Like Ms. Jones, he is a 
graduate of Hampton University and a fellow trustee.
    We are also joined by several members of the U.S. Tax 
Court: Chief Judge Maurice Foley, Judge Tamara Ashford, Judge 
Elizabeth Copeland, Judge David Gustafson, Judge Kathleen 
Kerrigan, Judge L. Paige Marvel, Judge Elizabeth Crewson Paris, 
Special Trial Judge Diana Leyden, and Legislative Council Anita 
Rizek.
    We want to welcome all of you here today. We are grateful 
to have you here. Ms. Jones, I want to thank you for being here 
today, and also thank you for your willingness to serve our 
country.
    After Senators give their opening remarks, Senator Kaine 
will introduce Ms. Jones.
    And with that, I will turn to my great friend, Ranking 
Member Wyden.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman.
    Ms. Jones, welcome to you. We have heard wonderful things 
about you, and I will have some more to say about you in a 
moment. But I think it would be fair to say at the outset that 
no one is ever going to be able to say you are not supportive 
of family values, because that is one large family you have in 
back of you. [Laughter.]
    When you are with Senator Kaine, you are running with the 
right crowd. So I will have some more to say about you here in 
a moment.
    This is likely our last committee hearing, colleagues, 
before the end of this Congress, and I want to talk for just a 
moment about Chairman Hatch.
    I think we all understand his long tradition of decency and 
civility. He has always been a gentleman. He is passionate 
about representing the people of Utah and the work this 
committee does. And suffice it to say as a former boxer, he 
knows a thing or two about endurance. No one wants to face the 
Hatch right cross, which is quite renowned.
    I think it is also fair to say that he has had a long 
record of accomplishment. He has always tried to work across 
both sides of the aisle. I can remember as a junior House 
member--when I had a full head of hair and rugged good looks--
we were trying to help the community health centers.
    They were paying enormous sums of money needlessly for 
malpractice costs. And Chairman Hatch and I--and he was willing 
to work with a junior House member--figured out a way to reduce 
those costs for community health centers so literally hundreds 
of thousands of visits for poor families and vulnerable kids 
were possible without spending any additional money.
    And just in this last Congress, if you had said in January 
of 2017, in a polarized political environment, that this 
committee could have gotten a 10-year extension of the 
Children's Health Insurance Program, a program that Senator 
Hatch was there on the ground floor of with Senator Kennedy; a 
transformation of the Medicare program as it moves from acute 
illness to chronic illness, cancer, diabetes, and heart 
disease; and the largest overhaul of the child welfare 
program--an overhaul that Marian Wright Edelman, the renowned 
leader of the Children's Defense Fund, told me she had been 
dreaming about for decades--if anybody had told you that you 
could achieve that in this Congress, in this kind of political 
environment, everybody would have said that you were 
hallucinating. That happened under the leadership of Chairman 
Hatch--period, end of discussion. It did not happen by osmosis, 
and I want to thank him for that, and I think those matters 
will be long remembered.
    One last piece of business with respect to Chairman Hatch, 
and then we will turn to our very qualified nominee, Ms. Jones.
    Mr. Chairman, we wanted to get together here on the 
committee, and I think it would be fair to say that every 
member--I see Senator Thune, Senator Cassidy, my colleague 
Senator Nelson, Senator Cardin. We wanted to present you this 
morning with this special gavel--and I have been appreciative 
that, from time to time when I was fairly outspoken, I did not 
get hit with the gavel. I am very glad I will not get hit by 
this gavel, which is even bigger.
    Mr. Chairman, on behalf of a very grateful committee, every 
Democrat, every Republican, we wanted to present you with--do 
you want to hold it up for your fans? [Laughter.]
    The Chairman. I want to hold it up, because it is a 
wonderful gesture, as always.
    Senator Wyden. Okay.
    To the business at hand--and by the way, colleagues, I 
would like to invite all of you to join me on the floor of the 
Senate. I think Senator Thune already is coming, but some of 
the others of you I think are going too. We will have more to 
say on the floor of the Senate to congratulate Chairman Hatch 
during the course of the week.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    Senator Nelson. Ranking Member Wyden, would it be possible 
to say just a momentary comment about Senator Hatch?
    Senator Wyden. Sure; of course.
    Senator Nelson. A lot of people within the sound of my 
voice do not know that Senator Hatch is an accomplished music 
writer, among his many talents. And I have even heard him 
actually sing, and he has the voice of a songbird.
    The Chairman. Now that is going too far. [Laughter.]
    Senator Nelson. Mr. Chairman, you have been a wonderful 
chairman. You have been a wonderful Senator. You have been a 
wonderful patriot as the president pro tempore in the short 
line of succession to the Presidency. You have stood very tall, 
as is your stature.
    And, Mr. Chairman, I want to say in addition, and most 
importantly, you have been a gentleman, especially in a time 
that civility, courtliness, and respect for the other fellow is 
so important. And that you have been. Thank you.
    The Chairman. Thank you.
    Senator Thune. Mr. Chairman?
    Senator Wyden. And I would only say to my colleagues, we 
are going to have a full-fledged bouquet-a-rama for the 
chairman on the floor of the Senate too.
    Can Senator Thune make any remarks? Are you willing to----
    The Chairman. Sure.
    Senator Wyden. Senator Thune?
    Senator Thune. Yes, thank you, Senator Wyden.
    Mr. Chairman, I, like everybody here, just--I cannot 
imagine a Senate without Orrin Hatch.
    I came here as a young staffer in January of 1985, and 
Senator Hatch had already been here for almost 10 years. He was 
not yet on this committee, but I just remember admiring, 
looking up to him, as a man of character, a great role model 
example for all of us who aspire to be in public life.
    And so I was a young pup up here, and you were already 
making a mark. And, Senator Wyden, Senator Hatch has maintained 
not only his rugged good looks but his hair. [Laughter.]
    And certainly one thing that he has never lost is his 
gentlemanliness, as everybody has said. He is going to go down 
as one of the most consequential members of the Senate, in 
terms of a record of legislative achievement and also for his 
example of character and leadership.
    So I know that your wife Elaine, and your kids, and your 
grandkids, and your great-grandkids are looking forward to 
having more time with you. I am hoping you are going to spend a 
little more time going to the Utah Jazz basketball games and 
enjoying life. But this place will not ever forget you, Mr. 
Chairman. And I am grateful for having had the opportunity not 
only to serve under you, with you, on this committee, but just 
to admire your body of work over what has been a long period of 
time in a place where it is very, very difficult to get things 
done.
    So thank you for your service and for your leadership and 
for your example.
    Senator Wyden. Mr. Chairman, your fans are quite vociferous 
today about speaking out.
    Senator Cardin?
    Senator Cardin. Well first, Mr. Chairman, I want to thank 
you for your dedication to public service. When I ran for the 
United States Senate and was able to join this body, I looked 
to Senator Hatch as the example of what a U.S. Senator should 
be.
    Your civility, your commitment to the issues, your 
listening to both Democrats and Republicans, your ability to 
bring us together, your legacy of legislation that Senator 
Wyden has already talked about, and your friendship--I will 
always cherish the times when we have had an opportunity to 
exchange views and your willingness to try to come together to 
understand different points of view.
    It has been pointed out that civility is lacking in our 
society today. It is not lacking in Orrin Hatch, and your 
legacy will live on for many decades in what you have been able 
to accomplish here in process and in substance.
    And if I might, Mr. Chairman, I also would like to express 
my--when I came to the Senate, Leader Reid asked what committee 
I wanted to serve on. He asked for all my committees. I said, 
``Senate Finance Committee.'' He said, ``No, you are not going 
to get on Senate Finance Committee your first year. What 
committees do you want to serve on?'' I said, ``Senate Finance 
Committee.'' There are many reasons for that, because of the 
great record of this committee and people serving like Senator 
Hatch.
    But I also want to acknowledge Bill Nelson. Bill has been a 
true colleague on this committee and in the United States 
Senate. We have worked on many issues together. His leadership, 
particularly on space issues, but on so many different issues, 
will always be known--health issues, his concern for the people 
of Florida and for this Nation.
    Bill, we are going to miss you. We are going to miss Orrin. 
The committee will never be the same again, but we thank both 
of you for your public service.
    Senator Wyden. And we are going to have more to say about 
Senator Nelson as well.
    Mr. Chairman, your fans continue.
    Senator Isakson?
    Senator Isakson. Thank you very, very much, Senator Wyden.
    You know, a number of years ago I heard the name Orrin 
Hatch for the first time. I said, ``That sounds like a very 
special name. That is an unusual name for a person. I hope I 
get to meet that man one day.'' Little did I know I would get 
the chance to meet him.
    And he is not unusual, but he is very special. And he is a 
man of great dignity and civility and has done a great job for 
this committee and for our country for years and years and 
years.
    But I want to tell you a thing I will never forget, Orrin, 
and that was the tax bill this year. Seven straight days and 
nights working until 1 o'clock in the morning with you as the 
chairman, and Senator Wyden as the ranking member, we went 
through a voluminous tax bill and finally got it all put to bed 
until the closing night when we were all making our final 
statements.
    And I will never forget--you had been so dignified, and so 
responsive, and so respectful, and so articulate, and so 
intelligent, I just could not believe you could exceed it. But 
that night you did, because Sherrod Brown took his last shot at 
you, you threw out the script, and you still looked him 
straight in the eye. It was one of the best performances I have 
ever seen.
    You do not catch him speechless often, but you did. You are 
a great chairman. You are a great friend. You are a great 
example to our country of what we all hope we can be like as 
Senators to the United States of America. I appreciate 
everything that you have done for me personally, for my State 
of Georgia, and for all of the things that you have done for 
this country.
    You are a fine man, and I have enjoyed very much getting to 
know you, being a part of you. And I am glad I heard that name 
one day, and I am glad I got the chance to meet the man named 
Orrin Hatch. That is a great name and a great man. God bless 
you.
    The Chairman. Well, thank you, Senator.
    Senator Wyden. Mr. Chairman and Ms. Jones, I am going to 
have some comments about you before breakfast, but Senator 
Cassidy would like to go next.
    Senator Cassidy. Chairman Hatch, Senator Thune spoke of 
coming in contact with you in 1985 when he was a young staffer. 
Probably about that time, I came in contact with you when I was 
toiling away as a physician and could not help but notice all 
this substantive, important, far-reaching legislation regarding 
lowering drug costs, your Hatch-Waxman bill for example, which 
made such a difference among my patients who otherwise could 
not afford their medicine and really set up a paradigm which 
has made the United States a leader in the world in that 
regard.
    So in fact, I was such a fan of yours that when you ran for 
President and said you wanted everybody to give $35, I sent in 
$35. I said, ``What a bargain.''
    So thank you for your service. The scripture says that the 
greatest among you shall be your servant. And you have been a 
servant, and that is what has made you so great.
    So I thank you for your leadership of this committee, on 
behalf of the people of Utah and on behalf of all of Americans.
    The Chairman. Thank you, Senator.
    Senator Wyden. Mr. Chairman, Senator Bennet.
    Senator Bennet. Thank you.
    Mr. Chairman, I have had the privilege of serving with you 
on this committee for over the past 5 years. It is hard for me 
to believe--I have not moved very far in 5 years, but I have 
been here for 5 years. Over that period, you have been a model 
for the Senate, the way you serve with dignity and grace, and 
perhaps most of all your humility, Mr. Chairman.
    It would have been easy for somebody with your experience 
to dismiss younger members of the Senate when they got here, 
but that has not been my experience with you. You have always 
listened, even when we disagreed, which we sometimes did. But I 
think you really have embodied the qualities of the West here, 
and you have reminded everybody what this place should be 
about.
    This morning I asked my staff to put together a list of the 
things that you and I have worked on, everything that we have 
worked on over the years. And we have done a lot of things 
together, from streamlining the FDA approval process, the PATH 
Act, boosting innovation in health-care technology, the MEDTECH 
Act, to bringing breakthrough therapies to market more 
quickly--that has made a huge difference to patients and 
citizens all over the world.
    I would run out of time if I listed everything, but that is 
just a little bit of what you have allowed me to do since I 
have been here. And it is an incredible record of 
bipartisanship, I think.
    And I will remember your legacy every time I meet one of 
the 90,000 kids in Colorado who has health care because of 
CHIP.
    Every time I think about the partisan nonsense that we are 
facing over immigration, I will remember the courageous vote 
you took in 2013. That was not an easy vote to take, but it was 
the right vote. I think history will demonstrate that.
    It is a reminder that, with your departure, we are losing a 
leader who remembers when this place actually worked and who 
has contributed mightily to that work.
    So, Mr. Chairman, I have said that I will miss you. The 
Senate will miss you. Washington will miss you, and I hope you 
will not go too far.
    Thank you for your distinguished service to our country.
    The Chairman. Thank you.
    Senator Wyden. Thank you, Senator Bennet. The beat goes on. 
Senator Casey?
    Senator Casey. Thank you very much, Senator Wyden.
    Mr. Chairman, I want to reiterate much of what has been 
said. I will make it a little more personal, in the sense of 
issues we have worked together on, and work that you have done 
that has led the way.
    Most recently, we were able to work together yet again on 
the traumatic brain injury legislation, to reauthorize the 
legislation that you were such a part of and leading on for so 
many years. And when I came to the Senate, we began to work 
together on how you provide medical services to a child in a 
way that is in the best interest of that child, not just 
medical services more generally.
    Senator Bennet and others, I know, have mentioned the 
Children's Health Insurance Program, but I am just grateful for 
all the work that you have done on a range of issues that are 
important to families and, frankly, for a lot of them are 
essential to their lives when you consider the impact of health 
care on a family, the impact on the life of a child when they 
have health care or when they have medical treatment that is 
appropriate for what a child needs.
    I especially want to note for the record, but I have often 
noted, that you are a native of the city of Pittsburgh. And you 
are always welcome back. Pittsburgh still has a lot of good 
trial lawyers. Maybe you want to continue that work. But there 
will always be a place for you in Pittsburgh.
    But personally, Mr. Chairman, we are going to miss, not 
just your work and your leadership--that is obvious--but also 
your willingness and your efforts to reach across the divide to 
bring people together. And we are grateful for that.
    The Chairman. Thank you, Senator.
    Senator Wyden. Thank you, Mr. Chairman.
    Your testimony is almost at hand, Ms. Jones.
    I just want people to know, as the ranking member, I think 
you are a very qualified nominee for this position. And suffice 
it to say the Tax Court is not something people talk about at 
diners across America. People do not know much about the Tax 
Court, but it is the judicial backbone of the Federal tax code. 
It is right at the heart of providing fairness for taxpayers 
across the country. This is the place you go to dispute a bill, 
for example, dispute a tax bill, and you get the opportunity to 
do it before you pay.
    It is not exactly a cushy gig. You have to fly hither and 
yon. Tens of thousands of cases come before the Court.
    And I look forward to your testimony, look forward to 
hearing from Senator Kaine. You are lucky to have him in your 
corner. I want all my colleagues to know it is my intention to 
support you vigorously in this nomination process and to see 
you approved.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator.
    It is my intention to support you vigorously. We are proud 
of you and look forward to taking your testimony at this time.
    Senator Wyden. Mr. Chairman, I think Senator Kaine would 
like to introduce her.
    The Chairman. I am sorry.
    Senator Kaine, I know you would like to introduce the 
witness, and we will turn the time over to you.

                 STATEMENT OF HON. TIM KAINE, 
                  A U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you, Mr. Chairman and Ranking Member 
Wyden, members of the committee.
    What a treat it is to be here today to introduce to the 
committee Courtney Dunbar Jones, nominee for the Tax Court, and 
have a chance to offer words about her.
    But again, I will just briefly say, Mr. Chairman, what a 
treat it is to be here today and to hear those statements about 
your career, your 4 decades-plus of service. You have been true 
to yourself. You have been true to your State. You have been 
true to your country, and you have elevated the institution.
    I was really happy that probably one of the last bills you 
introduced was the bill that you and I co-sponsored together, 
the Fair Housing Improvements Act, which is on a shared passion 
of affordable housing. And that is something I really enjoyed.
    Also, as I have said to you many times, we consider you an 
honorary Virginian because, during your time in the Senate, you 
have made Vienna a part-time home. And that is something we are 
very proud of.
    Thank you for elevating the institution.
    I am really happy to be here today with Courtney Dunbar 
Jones. She will talk a bit about her family, but I want to 
acknowledge that her husband, Dr. Russell Jones, is here. Her 
husband is a clinical psychologist at Fort Belvoir providing 
mental health services to our military members--obviously a 
wonderful public servant in his own right.
    They have three children. Their oldest, a third-grader in 
the Fairfax public school system, Audrey, is also here. And 
then you see this great extended set of family and friends. I 
will just say to you, if you ever have hearings and the nominee 
is a graduate of Hampton University, you will have this same 
strong showing.
    Courtney grew up in Montgomery County, but went to Hampton. 
And she has told me that Hampton, along with her family and her 
faith, is really a pillar in her life. She just completed 
service on the Hampton Board of Visitors, a wonderful service 
there. But that explains this strong support. Hampton is a 
very, very superb and a unique institution that tends to 
provide fantastic support for those who go through.
    Courtney, as I said, grew up in Montgomery County and then 
went to Hampton. She has continued to be very involved in the 
life of Hampton. She then went to Harvard Law School, had a 
superb record there while she was at Harvard. She was editor-
in-chief of the Harvard BlackLetter Law Journal. She was a 
leader at school. She was an Earl Warren Legal Training Program 
fellow, sponsored by the NAACP Legal Defense and Educational 
Fund. She received the National Bar Institute African American 
Law Student Fellowship while she was at Harvard.
    Following her graduation, she practiced privately, first in 
Atlanta and then with the well-known tax firm Caplin and 
Drysdale here in Washington, DC, and then she served--Mr. 
Chairman, as you mentioned--for the Internal Revenue Service. 
And during her entire career in the tax field, she has had a 
specialty on tax-exempt organizations, a very important part of 
the tax code, these organizations that provide philanthropic 
assistance to so many.
    She is a well-regarded speaker and leader of the Tax Bar 
who has made a lot of time to mentor others just as she has 
been mentored by folks, including people who are here with her 
today.
    We are very, very proud to count her as a Virginian and 
resident of Fairfax County. And it is my honor to be here and 
strongly recommend her to you today.
    My intention is to stay during her opening comments and 
then depart to run around and do the other things I need to do 
today. But I could not recommend Ms. Jones more highly, and I 
am happy that I am being asked to say a few words on her behalf 
this morning.
    The Chairman. Well, thank you. And those are very important 
words.
    We will get to you in just a second. I understand Senator 
Roberts would like the floor.
    Senator Roberts. Thank you, Mr. Chairman.
    Ms. Jones, I am in strong support of your nomination. I 
want to say that first.
    But I want to join my colleagues in taking a few minutes to 
discuss the Senator from Utah.
    I understand he has received a brand new gavel. You should 
have had that when we needed it. [Laughter.]
    I just want to discuss how much the Senator from Utah has 
meant to this institution and to all of us personally. As a 
matter of fact--I do not think members are aware of this, and 
maybe the chairman is not either, but the definition of a 
gentleman in Webster's latest dictionary lists two words: Orrin 
Hatch. Now that is true, Mr. Chairman. You do not have to 
question me.
    He is a true and genuine gentleman. He has consistently 
maintained a demeanor that represented the Senate well over the 
course of his illustrious and record-setting 42-year career.
    Whether he agreed or disagreed with your policy positions, 
he always treated you with respect. His brand of unconditional 
cordiality is increasingly rare, and this institution sure 
could use a lot more of it.
    Not many people have the wherewithal, stature, and bona 
fides to have members from both parties sing your praises, and 
you and what you stand for will be sorely missed.
    Senator Hatch is not most people. Simply put, the 
institution he truly loves will not be the same without him. 
Since coming from the House to the Senate, I have had the 
privilege of knowing Orrin Hatch up-close and personal. Our 
offices are next to each other, and I have the honor of riding 
drag as part of Orrin's security detail.
    He said it needed an experienced Marine. I rode in the back 
truck with lights flashing. My job was to look at the tall 
buildings and make sure that there was not anybody up there. 
And there were a few, but they were waving flags for Orrin.
    So, Orrin, I still have your back. I will always have your 
back. I love you. Godspeed. Thank you, and best wishes from 
Frankie and myself.
    The Chairman. Well, thank you.
    Senator Roberts. I yield back.
    The Chairman. Tell Frankie that I love both of you.
    Okay. Well, I think----
    Senator Wyden. It is hard to believe, but we may be 
starting. [Laughter.]
    The Chairman. Well----
    Senator Carper. Before we start, Mr. Chairman, could I just 
say something to our witness?
    The Chairman. Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    You know, this is an important hearing, not just because 
you are before us, but because he is going to be leaving us.
    When I first arrived in the United States Senate on January 
3, 2001, one of the people I went and met with was Orrin Hatch. 
He had a great reputation for working across the aisle. He and 
Ted Kennedy were for many years colleagues, but they have also 
been good friends.
    And when I called on him, he called me a boy--boy! I went 
back to my office. I was, frankly, offended by that 
terminology. A year or two later, he still continued to do 
that.
    After a while, I began calling him ``old man.'' [Laughter.]
    The Chairman. And I got deeply offended, you know. 
[Laughter.]
    Senator Carper. Over time, as I grew older, being called 
``boy'' was less bothersome. And this last year, running for 
reelection at the tender age of 71, when people questioned my 
youth and my ability to serve for 6 more years, I said, ``Some 
of my colleagues still think I am boyish; in fact, one of them 
calls me `boy' to my face, and I am sure behind my back.'' 
[Laughter.]
    And I will miss Orrin Hatch for many reasons. I love 
sitting with him on the floor and just talking, and I love 
serving with him on this committee. But I am most grateful of 
all--I will miss the most the spirit of youth that you have 
infused in me these last 18 years.
    God bless you, Mr. Chairman.
    And a warm welcome to you.
    The Chairman. Well, Thank you, Senator.
    Well, shall we--let us have you present your opening 
remarks.

STATEMENT OF COURTNEY DUNBAR JONES, NOMINATED TO BE A JUDGE OF 
          THE UNITED STATES TAX COURT, WASHINGTON, DC

    Ms. Jones. Thank you.
    Chairman Hatch, Ranking Member Wyden, and members of the 
committee, first and foremost--and especially during this 
holiday season--I thank my Lord and Savior Jesus Christ for 
blessing me with the opportunity to serve as a judge on the 
U.S. Tax Court. I am humbled and honored to be nominated by the 
President, and I thank you, Chairman Hatch, Ranking Member 
Wyden, members of the committee, and the committee staff, for 
scheduling this hearing and processing my nomination. I am very 
grateful to the staff of the committee on both sides of the 
aisle for their diligent efforts to bring this to fruition at a 
very busy time for the committee at the end of the year.
    I understand that this hearing is Senator Hatch's last 
hearing chairing the Finance Committee, and I am honored to be 
the witness at this hearing.
    Thank you, Senator Kaine, for introducing me. My husband 
and I are proud Virginians, and I did grow up in Montgomery 
County, MD, but we do consider ourselves Virginians. And so I 
am honored to be introduced by you today.
    If I am so fortunate as to be confirmed as a judge on the 
U.S. Tax Court, it will fulfill a lifelong dream to serve. I 
have always felt a calling to public service, because I come 
from a family of public servants.
    That tradition started with my grandfather, Dr. Richard 
Brown, who was the first African-American elected by the 
community at large to serve on the school board for the city of 
Harrisburg, PA from 1949 to 1967. In keeping with that family 
tradition, I have been honored to serve as an attorney at the 
IRS Office of Chief Counsel for the last 7 years, where I have 
not only deepened my expertise in tax-exempt organization law, 
but I have also broadened my understanding of Federal tax law 
and its interpretation in Federal courts.
    From my 14 years of practicing law in both the private and 
public spaces, I have developed a profound appreciation for the 
fair and impartial application of the law. If I am confirmed, 
that will be my guiding principle.
    In my career, I have been mentored by some of the leading 
attorneys in Federal tax law. Though, while I cannot possibly 
name each person, I would like to acknowledge my colleagues at 
Bird, Loechl, Brittain, and McCants in Atlanta, who introduced 
me to tax-exempt organization law; my colleagues at Caplin and 
Drysdale, who modeled expertise and brilliance while embracing 
the most difficult issues in Federal tax law; and my colleagues 
at the IRS Office of Chief Counsel, who have demonstrated an 
extraordinary commitment to public service.
    I would like to acknowledge my family, especially my 
husband Russell, the love of my life and my very best friend, 
and our three children, Audrey, Asa, and Adele, who are 
extraordinary blessings to me. Though I care deeply about my 
work as a tax lawyer, I know that being a wife and mother are 
the most important, most fulfilling roles I will ever have 
[tearing up]. And I didn't do this when I practiced. 
[Laughter.]
    Finally, I would like to acknowledge my parents, in-laws, 
friends, neighbors, law school classmates, and as you can see 
here, members of my Hampton University family who are here 
today and who are watching. Without their love, prayers, and 
support, I would not be here today.
    Thank you, Mr. Chairman, Ranking Member Wyden, and other 
members of this committee, for your consideration. I will be 
happy to answer any questions.
    The Chairman. Thank you.
    [The prepared statement of Ms. Jones appears in the 
appendix.]
    The Chairman. You are just the type of person we need in 
these times in this particular position, and we are very 
grateful you are willing to serve. And I am sorry it took us a 
long time to get to you, but we are grateful for you.
    And I have some obligatory questions I am going to ask that 
I ask all nominees.
    First, is there anything that you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Ms. Jones. No, Mr. Chairman.
    The Chairman. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Jones. No, Mr. Chairman.
    The Chairman. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of the Congress if you are confirmed?
    Ms. Jones. Yes, Mr. Chairman.
    The Chairman. Finally, do you commit to provide a prompt 
response in writing to any questions addressed to you by any 
Senator of this committee?
    Ms. Jones. Yes, Mr. Chairman.
    The Chairman. Well, thank you.
    That is all I can ask of you. You know, as a Tax Court 
judge, you will preside over many cases that involve 
unsophisticated taxpayers with few resources to deploy while 
making their cases. So I hope that--I have every belief that 
you will treat these taxpayers with respect and understanding 
while stopping short of awarding them an advantage over others.
    So I am grateful for your willingness to serve, and with 
that, I am going to turn to the ranking member.
    Senator Wyden. Thank you. Thank you very much, Mr. 
Chairman.
    Mr. Chairman, I do not have any questions specifically for 
Ms. Jones. I do come back to this basic proposition that people 
do not know much about the Tax Court. I mean, it is not a 
household word. Nobody is going to talk about it during the 
holiday season or on their way out of a football game. I mean 
it is not--but it really is the backbone of the entire tax 
code.
    And one of the reasons I support you strongly is that your 
history demonstrates that you are going to show a fairness for 
everybody. You know, the tax code in America, in my view, is 
really two tax codes.
    It is one for the high-flyers, and they can kind of figure 
out a way to pay what they want when they want to. And then 
there is another tax code for somebody who is a cop or a nurse, 
and they do not get anything special. Their taxes are taken 
right out of their paycheck; no special deals for them. And I 
think you are going to give a fair shake to everybody. That is 
what to me the tax code is all about. That is what I wanted 
when I wrote a bipartisan bill with Dan Coats, now head of 
national intelligence.
    So I support you strongly. And, so you just know, the 
chairman and I have discussed this. We have something--again, 
nobody really talks about it--called QFRs, where members are 
going to have a chance to ask you questions for the record. We 
are going to put that on a fast track, and it is my hope, Mr. 
Chairman--and I think this is along the lines of what our 
staffs have talked about--that we will be able to vote on the 
Jones nomination before the end of this week. And I am a 
vigorous supporter of same.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator Wyden.
    Senator Roberts, we will turn to you.
    Senator Roberts. Ms. Courtney Dunbar Jones, I think your 
statement was mercifully short, and extremely poignant, and 
extremely to the point.
    Mr. Chairman, I was wondering if we could ask her family to 
stand, if they might want.
    The Chairman. That would be great.
    Senator Roberts. Welcome to the committee. [Applause.]
    I have no further comments, Mr. Chairman. Thank you.
    The Chairman. Well, thank you.
    Senator Carper?
    Senator Carper. Ms. Jones, why do you think all of these 
people turned up for you today? What is it about you that they 
like and admire?
    Ms. Jones. Senator, I wish I could say it is my baking and 
cooking, but it is not. [Laughter.]
    Senator Carper. Are any of those people your husband?
    Ms. Jones. Yes, my husband is here.
    We share a bond, first in our faith, and also in going to 
Hampton together. Many of the people here went to Hampton with 
me or have served on the board of trustees with me. It is a 
very special school.
    Senator Carper. How does your faith guide you in this work?
    Ms. Jones. Well I, first of all, begin every day with 
prayer, and I ask the Lord to give me wisdom and humility, and 
that is the beginning of every day.
    Senator Carper. That is good. That is very good.
    Senator Scott and I religiously attend and participate in a 
Bible study every Thursday with Chaplain Black and six or seven 
or eight of our colleagues who need the most help. [Laughter.]
    Senator Scott. Would the Senator yield?
    Senator Carper. I would.
    Senator Scott. Amen. Thank you, sir. [Laughter.]
    Senator Carper. That is a shorthand version of saying, ``I 
am Senator Tim Scott, and I approve this message.'' [Laughter.]
    Senator Scott. Just do not add to the message, please. 
Thank you, sir.
    Senator Carper. How else does your faith guide you?
    Ms. Jones. Certainly in our parenting. I mentioned that 
we----
    Senator Carper. With respect to this nomination.
    Ms. Jones. I prayed about it before pursuing it. I asked 
the Lord for guidance, if this was something that he would want 
me to pursue. And my husband and I spent time in prayer seeking 
if this was something that the Lord would have us do as a 
family. And each day in my current work, I ask the Lord to give 
me wisdom and a sense of impartiality and fairness in 
everything I do.
    Senator Carper. There are two great commandments that were 
told in the New Testament. Do you recall what they are?
    Ms. Jones. To love the Lord God with all your heart, all 
your mind, and all your strength, and to love your neighbor as 
yourself.
    Senator Carper. How does that second one pertain to your 
work that you will be doing?
    Ms. Jones. I do, Senator, have a sense of compassion and 
deep respect for taxpayers who are challenging the government's 
assessment of their taxes. And though I will be fully pledged 
to apply the law impartially and fairly as it is written by 
Congress, I understand that it is no easy thing to take on the 
IRS and to disagree with an IRS assessment.
    So in my courtroom, pro se petitioners will first be 
encouraged to consider the resources, the legal assistance 
resources, that the Tax Court provides. There is a low-income 
taxpayer clinic program that is available in all 74 cities 
where the Court meets. That program has increased over the last 
several years thanks to congressional funding and also the 
support of the American Bar Association, the IRS Taxpayer 
Advocate Service, and local and State bar associations.
    So I will encourage pro se petitioners to consider that 
legal assistance. I have had the privilege of attending 
calendar calls in New York and a calendar call in Richmond, and 
I have seen the court encourage pro se petitioners to consider 
the legal assistance that is available to them.
    And I will also be very respectful and courteous. It has 
been my experience that when a judge handles a calendar call 
with respect and courtesy, everyone has an increased confidence 
in impartiality.
    I am circling back to your point about loving your neighbor 
as yourself, because that is the way I would want to be 
treated. I would want the judge to let me know what resources 
are available to help me in the case, and I would want the 
judge to treat me with respect and courtesy.
    Senator Carper. Senator Kaine and I both had the privilege 
of serving as Governors of our State and nominating people to 
serve as judges within our State. Delaware is a little State, 
but our courts have an oversized importance, our Supreme Court 
and our Court of Chancery Superior Court, because of our 
corporation law and other aspects of our State law.
    One of the qualities I always looked for in nominating 
people to the bench was judicial temperament, which is another 
way of saying treating other people the way we want to be 
treated. And I always looked for judges who were smart. I 
always looked for nominees who would work hard. I always looked 
for nominees who would be a good colleague to the others with 
whom they served.
    But the thing I looked for most was the willingness and the 
ability consistently to treat other people the way they want to 
be treated. And I am happy to hear that that is in the front of 
your mind, and I hope it always will be.
    Merry Christmas.
    Ms. Jones. Thank you.
    The Chairman. Thank you, Senator.
    Senator Scott?
    Senator Scott. Thank you, Mr. Chairman.
    It would be remiss that I start by asking questions of our 
nominee here if I did not spend a few minutes first on your 
service, Mr. Chairman, as chairman of this committee and to the 
United States of America.
    Your 42 years of service to the United States of America as 
a U.S. Senator has been an example for all of us to follow. 
They say that you embody the concept ``a prince of a fellow.'' 
Your approach and your graciousness has not been unnoticed. It 
has become an example for many of us to follow--your 
leadership, your wisdom. Your grace has been powerful, even 
when it is quiet. Your deference to your committee members, 
giving us the opportunity to participate fully in this 
committee, has been, I think, amazing.
    As a person, being given the opportunity to work on the tax 
code in an intimate way in 2017 and 2016, late 2016, was a 
phenomenal experience for a youngster on your committee. Only 
in the United States Senate are you a youngster when you are 
over 50. [Laughter.]
    But it is a blessing to have served on this committee under 
your leadership. You will be sorely missed by the United States 
of America. You will be sorely missed by your Senate 
colleagues, and you certainly will be missed by a fellow who 
considers you a mentor.
    Thank you for the way that you have run this committee, and 
thank you for the shining example of what a U.S. Senator should 
look like and act like. Civility, fairness, and opportunity are 
three words that should be synonymous with Orrin Hatch.
    Thank you, sir.
    The Chairman. Thank you, Senator.
    This has been an interesting hearing for me. I am not so 
sure it has been interesting for you. But it has probably been 
good, because you have not had to be put on the spot very much. 
[Laughter.]
    Senator Scott. Well, I will start where our good 
colleague----
    Senator Carper. Will the gentlemen yield?
    Senator Scott. Certainly.
    Senator Carper. So many nice things, truthful things, 
heartfelt things have been said about our chairman today, and I 
would just say, it is sort of a cup that overflows today.
    Senator Scott. Yes.
    Senator Carper. I would just want to say that, Mr. 
Chairman, there is an old saying we have in Delaware that says, 
``flattery won't hurt you if you don't inhale.'' [Laughter.]
    So do not breathe too deeply here this morning, and 
everything will be just fine.
    God bless. [Laughter.]
    The Chairman. Thank you, Senator. Do not worry. I have been 
around here long enough. [Laughter.]
    I appreciate you.
    Senator Scott. Ms. Jones, thank you for your willingness to 
serve the country as well. There is no doubt that the chairman, 
along with Senator Carper, I believe Senator Roberts as well, 
they have all focused--as well as the ranking member--on the 
importance of recognizing that, with the complexity of the tax 
code, folks who are without representation--the average person 
who is working paycheck to paycheck has too little time to 
study tax law.
    And frankly, if you had enough time to study tax law, you 
probably would spend that time doing something else, because it 
is a convoluted, complicated system. And without any question, 
the changes that we have made will even make it harder for 
folks to come before the Court and hope for justice.
    They will come in disillusioned. And I noted that Chairman 
Hatch has done a pretty good job of trying to make sure that we 
distill the importance of having that type of deference for the 
everyday folks who will be coming before you, along with major 
corporations and small business owners like I used to be. The 
focus that we have had, the focus that we have heard from both 
sides of the aisle, has been one that focuses on the importance 
of the individual having clarity and confidence, that the Court 
understands and appreciates their predicament, not simply from 
a tax perspective, but from an understanding of the tax laws.
    Can you comment just one more time, on the record, about 
how easy it is for you to understand and appreciate the 
complexity of your role, as well as the fact that the average 
person coming before you without representation, frankly, will 
have a feeling of disillusionment on what is possible in the 
Court?
    Ms. Jones. Senator, you are absolutely correct. 
Approximately 70 percent of petitioners in Tax Court are self-
represented. In the small case area, the Tax Court has special 
procedures for cases under $50,000, of not more than $50,000. 
It is 90 percent of petitioners----
    Senator Scott. Yes.
    Ms. Jones [continuing]. Who represent themselves. When I 
have attended calendar calls, I have seen everyday folks coming 
in, and I have had a great deal of respect for how difficult it 
is, first of all, to file a petition and challenge an IRS 
assessment, but also to take the day off of work to come to 
court, a place that is intimidating for an everyday person.
    Senator Scott. Yes.
    Ms. Jones. It is not, you know--you are not a lawyer. So 
coming to court can be an intimidating thing. I understand 
that, and I have an appreciation for that.
    I am a working mom, and I have seen working moms come to 
Tax Court, and I have been very impressed, candidly, with how 
they present their cases, as do so many other Americans. My 
commitment is to fairly and impartially apply the law, but I 
will do that with respect and courtesy and humility, 
understanding how challenging it is to take on the IRS and say, 
``My tax bill is wrong.''
    Senator Scott. Absolutely.
    Thank you very much, because the goal is to--if you owe it, 
you have to pay it. So we are not asking for any judgment that 
would not reinforce that reality, but the deference necessary 
in the way that you spoke this morning gives me confidence that 
we are heading in the right direction.
    I did have one prepared question for you, very quickly 
here, that you just touched on. Some of the ABA have encouraged 
the Tax Court to consider a limited appearance rule for pro 
bono attorneys. This one-time appearance representation may 
encourage more attorneys to provide pro bono assistance to 
taxpayers, since they could do so without creating conflict.
    Can you give us your thoughts on whether a limited 
appearance rule would benefit folks working paycheck to 
paycheck, those who are oftentimes self-represented?
    Ms. Jones. Senator, I have not given great thought to that 
question, but it is certainly something that, if I am 
confirmed, I would give serious consideration to, and certainly 
I would consult with my colleagues on that opportunity. As you 
noted, it has been the Tax Court's emphasis over the last 20 
years to increase legal assistance and to increase 
opportunities for legal assistance. So that is something I 
would certainly consider very seriously.
    Senator Scott. That would be great, because our goal, of 
course, is to look for ways to help have more attorneys willing 
to participate in the process pro bono to serve that 90 percent 
that you talked about, the low-income Americans who come before 
the Court without representation. If there is a way to improve 
this system so as to encourage more attorneys to be a part of 
that process, we would appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator.
    And I want to thank everybody for their attendance here 
today and their participation today.
    I would like to extend a special ``thank you'' to Ms. Jones 
for her willingness to serve. And while you have all come to 
expect these closing statements to be exceptionally brief, I 
hope you will forgive me if I use this time to address the 
committee for just one last time.
    I am extremely grateful for the opportunity to have served 
on this great committee. I have learned so much here from all 
of you and all of those who have served with me.
    But as my final hearing draws to a close, I would like to 
offer a few suggestions to my colleagues, similar to what I 
shared on the floor: be earnest, be honest, be courageous, be 
kind, and most importantly, be grateful for the opportunity you 
have been given to serve.
    I ask that any member who wishes to submit questions for 
the record do so by 5 p.m., December 11th, which is today.
    With that, this hearing--thanking you for being here and 
being willing to undertake this very, very important position--
with that, this hearing is adjourned.
    I thank everybody.
    [Whereupon, at 10:55 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


              Prepared Statement of Hon. Orrin G. Hatch, 
                       a U.S. Senator From Oregon
WASHINGTON--Senate Finance Committee chairman Senator Orrin Hatch (R-
Utah) today delivered the following opening statement at a hearing to 
consider the nomination of Courtney Dunbar Jones to be a judge on the 
United States Tax Court. This was Chairman Hatch's final hearing as 
Finance Committee chair. Hatch has been chairman of the committee since 
2015 and served as ranking member for 4 years before that. Hatch has 
been a member of the committee since March of 1991.

    Today we will consider the nomination of Ms. Courtney Dunbar Jones 
to be a judge for the United States Tax Court.

    Before I speak to the position Ms. Jones has been nominated to, and 
her qualifications, I would like to note that this will likely be my 
last hearing as chairman of the Finance Committee. I have served on 
this committee since 1991, and, while I've had more than a few 
arguments sitting in this chair, I've also made a lot of friends here 
and negotiated the passage of a lot of laws.

    It has been one of the great honors of my life to serve on this 
committee. I will miss it, as well as my friends here on both sides of 
the aisle, but I know I will be leaving the committee in capable hands.

    Now on to the matter at hand. The U.S. Tax Court plays an important 
role in our tax system, as it is the only avenue for taxpayers to 
challenge what may be an improperly assessed tax liability before being 
forced to send in payment or receive a refund.

    Judges on the Tax Court are some of the very few government 
officials who deal face-to-face with individual taxpayers on issues 
relating to their taxes. Therefore, it is important that we keep the 
Court staffed with qualified judges to ensure accountability to 
taxpayers and timely access.

    Ms. Jones, if confirmed, would serve as one of these important 
government officials. Currently, Ms. Jones serves as a Senior Attorney 
in the Office of the Chief Counsel at the Internal Revenue Service, 
focusing on advising the IRS and Department of Justice on litigation in 
the Federal judiciary related to tax-exempt organizations.

    She completed her undergraduate degree at Hampton University, where 
she currently serves as a trustee, and is a 2004 graduate of Harvard 
Law School.

    With over a decade's experience practicing tax law in both the 
public and private sectors, I have no doubt she is duly qualified for 
the position. Ms. Jones is joined this morning by many friends and 
family, including the Honorable Vanessa Gilmore, U.S. District Court 
Judge for the Southern District of Texas. Judge Gilmore is also a 
graduate of Ms. Jones's alma mater, Hampton University, and has 
mentored her over the last 20 years. Also here in support are several 
members of her sorority, Delta Sigma Theta, a service sorority which 
focuses on lifelong scholarship and service. I want to also recognize 
Colonel James George and his service of 27 years to the U.S. Army. Like 
Ms. Jones, he is a graduate of Hampton University and a fellow trustee. 
We are also joined by several members of the U.S. Tax Court. Chief 
Judge Maurice Foley, Judge Tamara Ashford, Judge Elizabeth Copeland, 
Judge David Gustafson, Judge Kathleen Kerrigan, Judge Albert Lauber, 
Judge L. Paige Marvel, Judge Elizabeth Crewson Paris, Special Trial 
Judge Diana Leyden, and Legislative Counsel Anita Horn Rizek, welcome.

    Ms. Jones, I want to thank you for being here today, and also thank 
you for your willingness to serve.

                                 ______
                                 
             Prepared Statement of Courtney Dunbar Jones, 
         Nominated to be a Judge of the United States Tax Court
    Chairman Hatch, Ranking Member Wyden, and members of the committee:

    First and foremost, and especially during this holiday season, I 
thank my Lord and Savior, Jesus Christ, for blessing me with the 
opportunity to serve as a judge on the U.S. Tax Court. I am humbled and 
honored to be nominated by the President, and I thank you, Chairman 
Hatch, Ranking Member Wyden, members of this committee, and the 
committee staff, for scheduling this hearing and processing my 
nomination. I am very grateful to the staff of the committee on both 
sides of the aisle for their diligent efforts to bring this to fruition 
at a very busy time for the committee, at the end of the year.

    I understand that this hearing might be one of the last Senate 
Finance Committee hearings over which Chairman Hatch presides, so I am 
honored to be the witness at this hearing.

    Second, I would like to take this opportunity to introduce my 
family and friends, and to thank them for their support: my husband, 
Dr. Russell Jones, the love of my life and my very best friend, who has 
encouraged me, prayed for me, and supported me every step of the way; 
and our three children, Audrey (9), Asa (4), and Adele (7 months), who 
are extraordinary blessings to me. Though I care deeply about my work 
as a tax lawyer, I know that being a wife and mother are the most 
important, most fulfilling roles I will ever have. I would also like to 
acknowledge my parents, in-laws, and extended family members who are 
here today and who are watching. Without their love, prayers, and 
support, I would not be here today.

    I would also like to acknowledge some dear friends and colleagues 
who have helped me immeasurably along the way, some of whom are here 
today. I am a proud graduate of Hampton University in Hampton, VA. Many 
Hampton friends have prayed for me and supported me, especially fellow 
members of the board of trustees of Hampton University and my sorority 
sisters of Delta Sigma Theta Sorority, Inc., one of the oldest African-
American service sororities. I thank Hamptonians who are Federal and 
State judges, particularly those who have mentored me, such as the 
Honorable Vanessa D. Gilmore (U.S. District Court, Southern District of 
Texas) and the Honorable Ulysses W. Boykin (Third Judicial Circuit of 
Michigan). I thank my classmates and professors from Harvard Law 
School, who inspired my interest in non-profit organizations and, as a 
result, Federal tax law.

    In my career, I have been mentored by some of the leading attorneys 
in Federal tax law. Though I can't possibly name each person, I would 
like to acknowledge my colleagues at Bird, Loechl, Brittain, and 
McCants, in Atlanta, who introduced me to tax-exempt organization law; 
my colleagues at Caplin and Drysdale, who modeled expertise and 
brilliance while embracing the most difficult issues in Federal tax 
law; and my colleagues at the IRS Office of Chief Counsel, who have 
demonstrated an extraordinary commitment to public service.

    If I am so fortunate as to be confirmed as a judge on the U.S. Tax 
Court, it will fulfill a lifelong dream to serve. Growing up, I always 
felt a calling to public service; it was a value deeply ingrained in my 
family. My grandfather, Dr. Richard Brown, was the first African-
American elected by the community at large to serve on the school board 
for the city of Harrisburg, PA (1949-1967). My parents also devoted 
significant portions of their careers to public service: my father as 
an attorney in State government and my mother as a public school 
teacher.

    For me, it has been an honor to work as an attorney at the IRS 
Office of Chief Counsel for the last 7 years. I recognize that Federal 
tax law touches almost every area of the lives of American citizens and 
that taxpayers want to be heard when they disagree with the IRS. So the 
opportunity to provide taxpayers with a fair and impartial forum for 
the resolution of their disputes, by serving as a judge on a court in 
which approximately 70 percent of petitioners represent themselves, 
resonates very much with me.

    My legal career has prepared me well to serve as a judge on the 
U.S. Tax Court. Upon graduation from law school, I worked in private 
practice and specialized in the Federal tax laws that govern tax-exempt 
organizations. For the last 7 years, I have been an attorney at the IRS 
Office of Chief Counsel, where I have not only deepened my expertise in 
tax-exempt organization law, but have also broadened my understanding 
of Federal tax law and its interpretation in Federal courts. From my 14 
years of practicing law--in both the private and public spaces--I have 
developed a profound appreciation for the fair and impartial 
application of the law. If I am confirmed, that will be my guiding 
principle.

    Thank you again, Mr. Chairman, Ranking Member Wyden, and other 
members of this committee, for your consideration.

    I would be happy to answer any questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Courtney Dunbar Jones; 
Courtney Adele Dunbar.

 2.  Position to which nominated: Judge, United States Tax Court.

 3.  Date of nomination: January 24, 2018.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: April 18, 1978; Harrisburg, Pennsylvania.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Name and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

        2001-2004; Harvard Law School; J.D., June 2004.

        1996-2000; Hampton University; B.S., May 2000.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

        2011-present
        Senior Attorney
        IRS Office of Chief Counsel
        Tax Exempt and Government Entities Division
        1111 Constitution Ave., NW, Room 4402
        Washington, DC 20224

        2008-2011
        Associate
        Caplin and Drysdale, Chartered
        One Thomas Circle, NW, Suite 1100
        Washington, DC 20005

        2004-2008
        Associate
        Bird, Loechl, Brittain, and McCants, LLC
        1150 Monarch Plaza
        3414 Peachtree Rd., NE
        Atlanta, GA 30326

        Summer 2003
        Summer associate
        Bird, Loechl, Brittain, and McCants, LLC
        1150 Monarch Plaza
        3414 Peachtree Rd., NE
        Atlanta, GA 30326

        Summer 2002
        Summer associate
        Bird, Loechl, Brittain, and McCants, LLC
        1150 Monarch Plaza
        3414 Peachtree Rd., NE
        Atlanta, GA 30326

        Summer 2002
        Summer associate
        Kilpatrick Stockton, LLP
        (Kilpatrick Stocton subsequently merged with Townsend, 
        Townsend, and Crew
        to form Kilpatrick Townsend, in 2011)
        Enterprise Mill
        1450 Green Street, Suite 230
        Augusta, GA 30901

        2000-2001
        Analyst
        Accenture
        675 W. Peachtree St., NW
        Atlanta, GA 30308

        Summer 2000
        Summer instructor
        The Howard School
        Roswell, GA

        Summer 2000
        Administrative assistant
        Re/Max
        855 Mt. Vernon Hwy., NE, Suite 100
        Atlanta, GA 30328

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

        Summer 1999
        Summer intern
        U.S. Department of Commerce
        Minority Business Development Agency
        1401 Constitution Ave., NW
        Washington, DC 20230

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

        2015-present
        Trustee
        Hampton University

        2003-2010
        Proprietor
        Dunbar Concepts, LLC

        1998-1999
        Student trustee
        Hampton University

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

        To my recollection:

        Professional

        Bar of the District of Columbia (2009-present).
        State Bar of Georgia (2004-2012 (inactive)).
        American Bar Association (past member, Section on Taxation).
        National Bar Association (past member, 2002-2006).
        American Intellectual Property Law Association (past member).
        Georgia Association of Black Women Attorneys (past member).

        Fraternal

        Delta Sigma Theta Sorority, Inc.
        Montgomery County, Maryland Alumnae Chapter (2008).
        Member at large (approximately 2000-2008).
        President, Gamma Iota chapter (Hampton University) (1999-
2000).

        Scholarly

        Harvard BlackLetter Law Journal (which was renamed the Harvard 
        Journal on Racial and Ethnic Justice in 2011).
        Editor-in-chief (2002-2004).
        Honors College, Hampton University (1996-2000).
        Chairman, executive board (1999-2000).

        Charitable

        National Community Church (2012-present).
        Alfred Street Baptist Church (2009-2012).
        Total Grace Christian Center (2004-2008).
        North Atlanta Community Church (2001-2004).

        Other

        New England Historic Genealogical Society (past member).
        Christian Legal Society (past member).
        The National Center for Black Philanthropy (past member)
        Harvard Law School Christian Fellowship (2001-2004).
        Harvard Law School Black Law Students Association (2001-2004).

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a 
        candidate.

      None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

       2008 Republican Presidential Campaign (volunteer).
       Liberty Republican Women's Club (Fairfax County, VA) (past 
member, for approximately 1 year, 2011).
       Young Republicans of Montgomery County, MD (past member, for 
approximately 1 year, 2008).

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years.

       2008 John McCain Presidential Campaign (approximately $50).
       2008 Mike Huckabee Presidential Campaign (approximately $50-
$100).

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

        Professional and Academic Awards and Recognitions:

       IRS Office of Chief Counsel individual awards: December 2017; 
November 2016; November 2015; November 2014; August 2012; and April 
2012.

       Hampton University annual President's Award (recognizes one 
outstanding member of the senior class, selected by the president of 
the university) (March 2000).

       Hampton University, bachelor of science, computer science, magna 
cum laude; Computer Science departmental award (1999-2000) (awarded to 
the most outstanding student in the department for the academic year); 
University honors list (1996-2000); Distinguished Scholar, Honors 
College; Who's Who Among America's Colleges and Universities (Spring 
2000); Cheyney University Forensics Tournament--outstanding performance 
(Spring 1999); Best Discussant, third place, Cheyney University Debate 
and Discussion Tournament (Spring 1997); and Honors College A+ Award 
(Spring 1997).
        Scholarships (nominated and awarded):

       Earl Warren Legal Training Program Scholar, NAACP Legal Defense 
and Education Fund (2001-2004).
       University nominee, The Rhodes Scholarships (Fall 2001).
       University nominee, The Fullbright Program (Spring 2000).
       University nominee, Ronald Brown Fellowship (Spring 1999).
       Hampton University Presidential Scholar (full tuition, room and 
board, 1996-2000).

        Fellowships and Internships:

       National Bar Institute African American Law Student Fellowship 
(2003-2004).
       Graduate Foreign Affairs Fellowship--Woodrow Wilson National 
Fellowship Foundation (awarded: Spring 2000).
       Fellow--Ronald H. Brown Foundation, Center for Politics and 
Commercial Diplomacy (Summer 1999).
       Intern--U.S. Department of Commerce, Minority Business 
Development Agency (Summer 1999).
       Intern--Freddie Mac, McLean, VA, through Inroads Greater 
Washington (Summers 1996-1998).

        Academic Societies

       Upsilon Pi Epsilon, Computer Science Honor Society (inducted: 
February 2000).
       Golden Key National Honor Society (inducted: April 1998).
       Alpha Kappa Mu Honor Society (inducted: November 1998).

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

        IRS Technical Advice Memorandum 136986-16 (released: October 
        13, 2017).

        IRS Private Letter Ruling 120751-16 (released: March 31, 2017).

        IRS Private Letter Ruling 120750-16 (released: March 31, 2017).

        IRS Private Letter Ruling 137724-15 (released: August 19, 
        2016).

        Notice of Proposed Rulemaking: Reliance Standards for Making 
        Good Faith Determinations; Federal Register (Vol. 77, No. 185), 
        September 24, 2012.

        Notice of Proposed Rulemaking: Examples of Program Related 
        Investments, Federal Register (Vol. 77, No. 76), April 19, 
        2012.

        Article: ``Four Common IRS Church Audit Issues,'' Daily Tax 
        Report, September 10, 2010 (also published in ECFA Focus on 
        Accountability Newsletter, 3rd Quarter 2010).

        Article: Harvard Law Record, ``Gay marriage is not a civil 
        rights issue'' (March 11, 2004).

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

        I have delivered presentations, or served as a panelist, at 
        each of the following meetings of the American Bar Association, 
        or Bar of the District of Columbia (Taxation Section) meetings 
        during the past 5 years.* Copies of my presentations or 
        transcripts of my remarks have been provided to the committee.
---------------------------------------------------------------------------
    * I have included the two speaking occasions from October 2012 
because the dates of those remarks are close to the 5-year time frame.

        Panelist, Fundamental IRC Sec. 501(c)(3) Organization Issues 
        Through the Eyes of Current Case Law, meeting of the Diversity 
        Committee of the ABA Section on Taxation, 2016 joint Fall CLE 
---------------------------------------------------------------------------
        meeting, Boston, MA, September 30, 2016.

        Panelist, Proposed Regulations for Making Good Faith 
        Determination's in International Grantmaking, meeting of the 
        Exempt Organizations Committee of the Tax Section of the DC Bar 
        Association, Washington, DC, October 4, 2012.

        Panelist, Proposed Regulations for Program-Related Investments, 
        meeting of the Tax Section of the American Bar Association, 
        Washington, DC, May 2012.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I am a recognized expert in the Federal tax law of tax-exempt 
        organizations, a distinction earned after 13 years of practice 
        is this area. For the last 6 years, I have served with 
        excellence as a senior attorney at the IRS Office of Chief 
        Counsel in the Tax Exempt and Government Entities Division, 
        where my focus has been advising the IRS and the U.S. 
        Department of Justice (Tax Division) on litigation related to 
        tax-exempt organizations in all Federal courts, including U.S. 
        Tax Court. Noteworthy cases in which I have made substantive 
        contributions include: Parks Foundation v. Commissioner of 
        Internal Revenue (2017 WL 6397284) (9th Cir.); ABA Retirement 
        Funds v. U.S., 759 F.3d 718 (7th Cir., 2014); and Losantiville 
        Country Club v. Commissioner of Internal Revenue (T.C. Memo 
        2017-158). In this capacity and beyond, I am recognized as a 
        technical expert and a superior writer.

        Prior to my government service, I enjoyed private practice in 
        the exempt organizations practices of Caplin and Drysdale, 
        Chartered in Washington, DC, and Bird, Loechl, Brittain, and 
        McCants, LLC in Atlanta, GA, both of which are leading tax 
        boutique firms. I am a graduate of Harvard Law School (J.D.), 
        where I served as the editor-in-chief of the Harvard 
        BlackLetter Law Journal (which has since been renamed the 
        Harvard Journal on Racial and Ethnic Justice). And I am a 
        graduate of Hampton University, from which I graduated magna 
        cum laude with a bachelor of science degree in computer 
        science.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

        I intend to sever all employment connections with my present 
        employer. If confirmed, I hope to continue my service as a 
        trustee of Hampton University.

        Also, I hope to be able to teach a legal course at a local law 
        school, at some point during my 15-year term. l have no 
        commitments or agreements to do so, an no other plans for 
        outside activities.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        If confirmed by the Senate, I expect to serve out my full term.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        I'm not aware of any such investments, obligations, 
        liabilities, or other relationships. As indicated on my 
        Financial Disclosure Report (as submitted to the Administrative 
        Office of U.S. Courts on January 25, 2018 and accepted by the 
        AOUSC on February 2, 2018), my investments are in publicly 
        traded mutual funds, which I do not control.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in possible conflict of interest in the 
position to which you have been nominated.

        I'm not aware of any such business relationship, dealing, or 
        financial transaction.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal government need not be listed.

        None/not applicable.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        I would refer to the Code of Conduct for United States Judges, 
        the Ethics Reform Act of 1989, 28 U.S.C. Sec. 455, as well as 
        any other applicable canons, rules, and statutes. I would also 
        notify the parties. of the potential conflict, and seek their 
        input, and consult with other judges if needed. I would 
        consider all of these factors to determine the proper course of 
        action, including possible recusal.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in the position.

        Not applicable.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
      Questions Submitted for the Record to Courtney Dunbar Jones
               Questions Submitted by Hon. Maria Cantwell
                           pro se plaintiffs
    Question. If confirmed as judge to the United States Tax Court, you 
will be responsible for resolving difficult tax controversies brought 
before you--in large and small cases. Judges for the U.S. Tax Court 
travel around the country and hear cases in 75 cities.

    Oftentimes, volunteer tax practitioners provide assistance to 
unrepresented taxpayers as they navigate the process of petitioning the 
IRS. These cases are often small businesses, innocent spouses, or low-
income taxpayers.

    As a judge for the U.S. Tax Court, what role would you play to 
ensure that cases for pro se plaintiffs are being adjudicated in a fair 
and timely manner?

    Answer. If I am confirmed as a judge of the U.S. Tax Court, I will 
have an obligation to resolve cases brought by taxpayers--whether self-
represented or represented by counsel--as quickly as possible. This 
will include providing unrepresented taxpayers with information about 
the availability of legal assistance (for example, the low-income 
taxpayer clinics). It will also include explaining the rules to 
unrepresented taxpayers in layman's terms while handling their cases in 
a fair and impartial manner.
                              new tax law
    Question. If confirmed as a judge to the United States Tax Court, 
you will be responsible for interpreting how our tax laws apply for a 
wide variety of plaintiffs--from corporations with large numbers of 
lawyers representing them to small businesses and individuals who 
appear before the Court without counsel (``pro se'').

    As the Internal Revenue Service reviews and publishes new 
regulations to implement the 2017 tax bill, differences are emerging 
regarding the interpretation of these tax provisions. These issues may 
result in possible future litigation. And the Tax Court will be in a 
position to help settle interpretation of many issues arising from the 
2017 tax bill.

    As a judge for the U.S. Tax Court, what role would you give to 
legislative intent, conference report language, or statements from 
members, as you interpret and apply the previously unlitigated tax law?

    Answer. As an attorney in private practice and at the IRS Office of 
Chief Counsel, I have learned to consider legislative history and how 
to use it within the bounds of authorities of the U.S. Tax Court, 
Circuit Courts of Appeals, and the U.S. Supreme Court. I will continue 
to follow these precedents in the interpretation of longstanding and 
newly enacted Federal tax law, if I am confirmed as a judge of the U.S. 
Tax Court.
                      administrative procedure act
    Question. The Administrative Procedure Act sets the standard for 
the way that Federal Government agencies propose and establish 
regulations. Currently, there is discussion about how the 
Administrative Procedure Act applies to tax guidance, rulings of 
deficiency, and other determinations.

    What is your opinion on the application or applicability of the 
Administrative Procedure Act with respect to temporary regulations and 
informal IRS guidance, such as notices, revenue procedures, revenue 
rulings, and private letter rulings?

    Answer. Because the application of the Administrative Procedures 
Act to various forms of Treasury and IRS guidance is an important area 
where there is ongoing litigation, I expect to study the issues by 
reviewing precedents of the Tax Court and higher courts. To the extent 
that such issues arise in Tax Court, I will also carefully consider 
arguments raised by taxpayers, including arguments related to the 
importance of soliciting public comments.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    Before we get to the subject of this morning's hearing, I'd like to 
briefly touch on another matter. As this is likely our last committee 
hearing before the end of this Congress, let me begin by saying that it 
has been a privilege to work closely with Chairman Hatch on this 
committee over the past 5 years. He has always been a gentleman. He's 
always been passionate about representing the people of Utah and the 
work this committee does. And as a former boxer, he knows a thing or 
two about endurance.

    Long before I had the opportunity to work with him in this 
committee, Senator Hatch had a record of legislative accomplishment 
that would match up against anybody else's. But I'm fortunate and proud 
to have worked with him--just in the last few years--on a 10-year 
extension of the Children's Health Insurance Program he and Ted Kennedy 
created, on a transformation in how Medicare treats chronic conditions, 
on the largest overhaul of our child welfare program in a generation, 
and much, much more.

    To mark this occasion, I'd like to present Chairman Hatch with the 
gavel he's used in his time leading this committee. And I'll have more 
to say later this week on the Senate floor, but let me just offer my 
thanks and sincere congratulations to Chairman Hatch on his 42 years in 
the ring.

    Now, on to the business at hand. Today the Finance Committee meets 
to discuss the nomination of Courtney Jones to serve as a judge on the 
United States Tax Court.

    The Tax Court may not be a big topic of conversation when Americans 
gather around the dinner table this holiday season. But the fact is, 
the Tax Court is the judicial backbone of Federal tax code. It's a key 
part of ensuring fairness for taxpayers across the country.

    The Tax Court is the best opportunity Americans have to dispute tax 
bills in a fair and timely hearing--before they have to pay. It also 
means individuals disputing a tax bill don't get stuck in a logjam in 
the slow-moving traditional Federal court system.

    Serving as a judge on the Tax Court is no cushy gig. It involves 
long hours and frequent travel handling the tens of thousands of cases 
that come before the Court each year. The hard work that Tax Court 
judges put in helps ensure that all taxpayers' voices are heard, and 
that the Nation's tax laws are enforced fairly and effectively.

    Courtney Jones comes to us as a highly qualified nominee with a 
top-notch education and years of experience working in tax law, both in 
the private and public sector. Her expertise makes her a strong 
candidate for this role, and I thank her for her willingness to serve. 
I look forward to questions.

                                   
                                   
                                   [all]


</pre></body></html>
